                                                    OFFICE OF INSPECTOR GENEFL4L
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11
                                                                           -




     Case Number: A-04060044                                                                  Page 1 of 1



          On 18 June 2004, we received an allegation that the same ideas in a competing NSF proposal'
          appeared in the subjects' (subject 1, the PI, and subjects 2,3,4, and 5, the co-PIS)NSF proposal2
          under review at the same time. It was alleged these ideas had been stolen from earlier NSF
          proposals submitted by the PI and co-PISof the competing NSF proposal.

          Our review determined that the ideas that appeared similar in the competing and subjects' NSF
          proposals were not unique to either group of investigators. The ideas appeared in the existing
          scientific literature. Also, we noted that subject 1 had been working in the particular area of
          research presented in the proposal for over 10 years.

          There is no substance the alleged intellectual theft of ideas in the subjects' NSF proposal. This




I'
 NSF OIG Fom 2 (1 1/02)
